OIG Investigative Reports, Vo-Tech School Employees Charged With Defrauding Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 861-8200
For Immediate Release:September 25, 2008
Vo-Tech School Employees Charged with Defrauding Department of Education
PHILADELPHIA – Acting United States Attorney Laurie Magid today announced the filing of a six-count indictment1 charging James Mannion, Carla Waltman, and Delbert Woodward, a/k/a ìChip,î with conspiracy in their operation of the Harrison Career Institute (ìHCIî) schools. Mannion is also charged with five counts of making false statements to the United States Department of Education.
HCI is a for-profit, proprietary school offering courses in the business and medical fields at various locations in Pennsylvania, Maryland, New Jersey and Delaware. HCI received millions of dollars yearly in Title IV funds from the United States Department of Education in the form of loans and grants for its students. HCI was obligated to maintain accurate student files for those students receiving federal funds and to timely refund to the United States Department of Education any unused funds. The indictment charges that from October 2001 through August 2005, the defendants, all of whom were employees of HCI, engaged in a conspiracy to falsify documents to the United States Department of Education. Specifically, according to the indictment, defendants fabricated or directed others to fabricate leave of absence requests for the purpose of making a late refund owed to the United States Department of Education appear timely. Further, the indictment alleges that defendants fabricated or directed others to fabricate verification worksheets and accompanying tax reports and documents, which the United States Department of Education required to ensure a student’s eligibility for student loans and grants. The indictment alleges that when these documents were fabricated, the defendants forged or directed others to forge student signatures on these documents without the students’ knowledge or consent. The indictment also claims that defendants fabricated these documents on a regular basis, and prior to audits conducted by an independent auditor and by the United States Department of Education.
INFORMATION REGARDING THE DEFENDANT
NAME
ADDRESS
AGE
James Mannion
Palm Harbor, FL
61 years old
Carla Waltman
Scranton, PA
44 years old
Delbert Woodward
Germansville, PA
50 years old
An indictment or information is an accusation. A defendant is presumed innocent unless and until proven guilty.
If convicted of all charges, Mannion faces a maximum sentence of 30 years in prison, a $1.5 million fine, five years supervised release, and a $600 special assessment; Waltman and Woodward face a maximum possible sentence of five years imprisonment, five years supervised release, a $250,000 fine, and a $100 special assessment.
The case was investigated by the United States Department of Education Office of Inspector General, and is being prosecuted by Assistant United States Attorney Denise S. Wolf.
HCI was headquartered in Voorhees, New Jersey. It operated approximately 14 schools in New Jersey, Pennsylvania, Delaware, and Maryland.
United States Attorney's Office
Eastern District, Pennsylvania
Suite 1250, 615 Chestnut Street
Philadelphia, PA 19106
Contact: Patty Hartman
Media Contact
215-861-8525
Copies of News Memos and Related Documents Can Also be Found at
http://www.usdoj.gov/usao/pae
Top
Printable view
Share this page
Last Modified: 01/05/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov